HHS/OIG, Audit - "Review of Fiscal Year-End Billing for Inpatient
Rehabilitation Claims Under the Administrative Responsibility of AdminaStar
Federal for 2002," (A-01-05-00520)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Fiscal Year-End
Billing for Inpatient Rehabilitation Claims Under the Administrative
Responsibility of AdminaStar Federal for 2002," (A-01-05-00520)
March 13, 2006
Complete
Text of Report is available in PDF format (472 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether
inpatient rehabilitation facilities (IRFs)
under the administrative responsibility of AdminaStar Federal (AdminaStar)
billed fiscal year-end inpatient rehabilitation claims in accordance with
Medicare requirements during the transition to the prospective payment system in
2002.  Twenty IRFs did not bill fiscal year-end claims in accordance with
Medicare requirements.  As a result, Medicare made net overpayments of
$272,564.  Some IRFs did not have adequate controls to
ensure that claims submitted at fiscal year-end were billed accordance with
Medicare requirements, and several IRFs stated that they had received inaccurate
information from AdminaStar.
We recommended that AdminaStar make the
appropriate adjustments to paid claims that resulted in net overpayments of
$272,564 to the 20 IRFs and continue education efforts for IRF and AdminaStar
personnel.  AdminaStar agreed with our recommendations.